Supreme Court, U.S.
FILED

WAIVER

AUG 2.1 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-124

Barry J. Smith, Jr.

United States, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

State of Wisconsin

EJ I am a member of the Bar of the Supreme Court of the United States.
F

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

8/207 Z0(

Date.
(Type or print) Name

Steven C. Kilpatrick
S
El Mr.

Firm

El Mrs.

El Miss

Wisconsin Department of Justice

Address

17 West Main Street, Post Office Box 7857

City & State
Phone

11] Ms.

Madison, WI

608-266-1792

Zip
Email

53707

kilpatricksc@doj.state.wi.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

RECEIVED

CC:

Barry J. Smith
3124 W. Silver Spring Drive
Milwaukee, WI 53209

Noel Francisco
United States Solicitor General
950 Pennsylvania Avenue, NW
Washington, DC 20530

Susan Knepel
Office of the Unites States Attorn ;),
517 East Wisconsin Avenue, Sui 5
6FFICE OF THE CLERK
Milwaukee, WI 53202
SUPREME COURT, U.S.

SEP - 6 2019

